<html>
<title> - LESSONS FROM FUKUSHIMA ONE YEAR LATER: NRC'S IMPLEMENTATION OF RECOMMENDATIONS FOR ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-959]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 112-959

    LESSONS FROM FUKUSHIMA ONE YEAR LATER: NRC'S IMPLEMENTATION OF 
   RECOMMENDATIONS FOR ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST 
                                CENTURY

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
 
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-036 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 15, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     6
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   150

                               WITNESSES

Jaczko, Hon. Gregory B., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................     8
    Prepared statement...........................................    11
    Responses to additional questions from Senator Boxer.........    15
    Response to an additional question from Senator Carper.......    32
    Responses to additional questions from:
        Senator Gillibrand.......................................    33
        Senator Inhofe...........................................    43
        Senator Barrasso.........................................    59
Svinicki, Hon. Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    66
    Responses to additional questions from Senator Boxer.........    67
    Response to an additional question from Senator Carper.......    69
    Responses to additional questions from Senator Inhofe........    70
Apostolakis, Hon. George, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    77
    Responses to additional questions from Senator Boxer.........    78
    Response to an additional question from Senator Carper.......    81
    Responses to additional questions from Senator Inhofe........    82
Magwood, Hon. William D., IV, Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................    95
    Responses to additional questions from Senator Boxer.........    96
    Response to an additional question from Senator Carper.......    98
    Responses to additional questions from Senator Inhofe........   100
Ostendorff, Hon. William C., Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   113
    Responses to additional questions from Senator Boxer.........   114
    Response to an additional question from Senator Carper.......   117
    Responses to additional questions from Senator Inhofe........   118

 
    LESSONS FROM FUKUSHIMA ONE YEAR LATER: NRC'S IMPLEMENTATION OF 
   RECOMMENDATIONS FOR ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST 
                                CENTURY

                              ----------                              


                        THURSDAY, MARCH 15, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee), presiding.
    Present: Senators Boxer, Inhofe, Carper, Sanders, Udall, 
Merkley, Barrasso, and Sessions.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. This hearing will come to order.
    A year ago this week in Japan a magnitude 9.0 earthquake 
struck off the coast of Japan, triggering a tsunami that is 
reported to have reached up to 45 feet high and stretched up to 
6 miles inland. The Fukushima-Dai-ichi Nuclear Plant was hit 
hard. It lost power, multiple hydrogen gas explosions tore 
apart reactor buildings, containment structures were damaged, 
three nuclear reactors melted down, and radiation poured out 
into the environment. People's lives were uprooted by 
evacuations to avoid the threat of radiation poisoning.
    Many of these men, women, and children have yet to return 
to their homes. Some may never be able to go back. I know that 
our thoughts and our prayers go out to the people of Japan and 
the victims of this catastrophe.
    The purpose of this hearing is to conduct oversight on the 
NRC's efforts to ensure that the 104 nuclear reactors in our 
Nation are operating safely and that these plants are swiftly 
implementing the lessons learned from the disaster in Japan.
    I would like to take a moment to discuss the safety issue 
concerning the San Onofre Nuclear Power Plant in California. 
After I learned of increased deterioration of tubes that carry 
radioactive water into the plant's steam generators, I wrote to 
the NRC and Southern California Edison and asked for focus on 
resolving the safety issues. If these tubes rupture, radiation 
could be released at levels that exceed safety standards.
    Today the NRC announced that it is flying out a special 
investigation team to conduct a more intensive evaluation of 
the plant. And I want to say thank you to each and every one of 
you. I have 9 million people living within 50 miles of that 
plant. It is critical that the NRC thoroughly review all of the 
safety implications of this problem, and that the public is 
assured that the plant can operate safely before it is 
restarted, and that the NRC keep me up to date on its 
investigation.
    So today is the sixth time after the events in Japan that 
members of the Committee have gathered to conduct oversight of 
the NRC. In late March 2011 the NRC created a task force to 
review our safety requirements in light of the events in Japan. 
In July 2011 the task force made 12 safety recommendations to 
help prevent and reduce the impact of such a disaster in the 
United States of America. The NRC staff prioritized these 
recommendations and said that several should be implemented 
without delay.
    On Monday the NRC sent three orders requiring these high 
priority safety improvements at domestic nuclear power plants. 
So a couple of days ago you took this important action. The 
first order requires plants to better protect safety equipment 
needed to address emergencies, to have enough equipment to 
address an emergency that hits all the reactors at a plant.
    The second order requires plants to install enhanced 
equipment to better monitor the conditions in spent fuel pools. 
And the third order requires the 31 boiling water reactors in 
the U.S. that are similar to Fukushima to improve or install 
venting systems that help to maintain safe conditions within 
the plants.
    The NRC also directed nuclear power plants to re-analyze 
earthquake and flooding risks, assess their ability to safely 
operate following such events as well as their capacity to 
communicate with a prolonged loss of power and to address 
emergencies at more than one reactor. The NRC has said it will 
also issue two notices of proposed rulemaking in March and 
April on steps to take if plants lose electric power and to 
approve emergency procedures.
    I am very encouraged that the NRC has moved forward. It 
shows the public that the NRC is acting on the information 
gathered since the Fukushima disaster.
    But I want to say something here. I am concerned about the 
time lines for requiring plants to meet these safety standards. 
The Commission asked the NRC staff to ``strive to complete and 
implement the lessons learned from the Fukushima accident 
within 5 years, by 2016.'' However, some of the proposed time 
lines allow plants to avoid meeting needed safety improvements 
for longer than 5 years. And I will have questions for all the 
Commissioners on this issue.
    You have done good work. Now let's make it happen in the 
field.
    According to FEMA, the Federal Emergency Management Agency, 
120 million people live within 50 miles of a nuclear reactor, 
including more than 9 million people in my home State of 
California. I also want to take this opportunity to say to you 
that your actions on San Onofre are very pleasing to me. I have 
had a history here of having to push hard, and I didn't have to 
do that in this case. I feel, since I have been critical, that 
I owe you a thank you.
    So that thank you not only comes from me and from Senator 
Feinstein, believe me, and I am sure the whole congressional 
delegation, but it comes from the people who are counting on 
you. They don't know your faces. But they appreciate the fact 
that you care enough about them to send an investigative team 
out there today to make sure that you understand what is 
happening with these tubes and why they are failing. They 
shouldn't fail. They are too new to fail. And something is 
happening there, whether it is the chemistry of the water, we 
don't know.
    But I so appreciate this.
    And with that, I will turn to Senator Sessions, who came 
first here on the other side.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chairman. Senator Inhofe 
is at the Armed Services Committee, where he is the senior 
member.
    Good morning. I thank all of you for being here, and 
appreciate the work that is being done to deal with the 
aftermath of the Fukushima incident, to review that carefully. 
It is an important challenge for us. We need to look at that, 
and from everything I see you have been focused and working 
hard on it. We need to confront the fact that the 
Administration claims to be in support of American energy, but 
their policies continue to drive up the price of energy and 
reduce the amount of energy produced in the States.
    It is certainly true with oil and gas production and also 
with nuclear power. He says he is committed to restarting the 
nuclear industry, but the record indicates otherwise.
    I was disappointed that the President's appointment as 
chairman of the NRC was the only member to vote against issuing 
a license to the Vogtle plant in Georgia. You can't delay these 
things forever and ever. They drive up the cost, create 
uncertainty, and basically will kill the new restart of nuclear 
power in America, which we need for energy, for the economy, 
and for the environment.
    Also, I would note that the chairman has played a central 
role in the Administration's efforts to close down Yucca 
Mountain Repository, an endeavor that essentially eliminates 25 
years of investments; $14 billion in Government money has gone 
into that.
    On December 15th we heard testimony about the abusive 
behavior of Chairman Jaczko, his abuse of the law, including 
the unlawful use of emergency powers, his withholding of 
information from other members of the Commission, his abusive 
personal behavior, and intimidation of staff. We heard 
testimony about the troubling circumstances that led the other 
four Commissioners, including those appointed by the President, 
to write a letter to the President, to the White House. It told 
the President that the chairman's actions are ``causing serious 
damage to the NRC and are creating chilled work environment.''
    Yet 5 months after that letter was sent the President has 
not responded in a responsible manner. And regrettably, instead 
of seeking to get to the bottom of these facts, the President 
and the Senate Democrats have circled the wagon to protect the 
chairman from accountability. So I am concerned about it, and I 
have to say I think it is obvious that there are serious 
problems in the leadership of the Commission--in the chairman's 
office--and it needs to be confronted.
    And one other thing I would like to say, and I think that 
President Obama should act soon to ensure that Commissioner 
Svinicki is not forced from the Commission in June. She was 
confirmed by the Senate in 2008 with broad support. She brings 
to the NRC a long and distinguished career as a nuclear 
engineer and public servant. She has worked at various levels 
of State and Federal Government. She held an important staff 
role dealing with nuclear issues for Senator John Warner on the 
Armed Services Committee. She is a hard worker, competent, and 
of sound character. Very recently she was willing to sign the 
letter that blew the whistle on the problems in the Commission.
    The NRC needs a full panel of experienced, qualified 
commissioners. And I am sure and am convinced that Commissioner 
Svinicki should not be urged to leave. I would urge the 
President to re-nominate her. She has the support of the 
Republican seat, and she has the support of the Republican 
leader. So it would be a travesty, I think, if we reached a 
situation where Commissioner Svinicki's service on the NRC is 
allowed to expire and then we would keep the chairman who has 
created so much controversy. I don't intend to let that happen. 
I am not going to let that happen, if I have anything to do 
about it, even if we have to bring the Senate to a grinding 
halt.
    So Madam Chairman, thank you for having this hearing. You 
have been an open and fair Chairman. I was pleased to know you 
are still celebrating that big highway bill.
    Senator Boxer. How quickly one forgets.
    [Laughter.]
    Senator Sessions. I am pleased to work with you, and you 
really demonstrated a tremendous amount of energy in bringing 
people together on that highway bill, and you deserve great 
credit for it.
    Senator Boxer. Well, that is very sweet of you.
    I just want to remind everybody that this hearing, what the 
title is, just to focus ourselves: Lessons from Fukushima One 
Year Later: NRC's Implementation of Recommendations for 
Enhancing Nuclear Reactor Safety in the 21st Century.
    And with that, I turn to Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I have a prepared statement, but I am going 
to go off of it a little bit.
    I am just going to say to my friend from Alabama, who, a 
lot of times we call one another friends, this guy is my 
friend, I like him a whole lot. I concur with you on your views 
on Commissioner Svinicki. She is a valued member of the 
Commission. My hope is that she will be reconfirmed, and I 
expect to support her.
    I also want to say this Commission has been through a tough 
time over the last year or so, trying to figure out how to work 
together, for this chairman to figure out how to lead 
effectively and to play his role well. We had really a public 
come-to-Jesus meeting here several months ago; you were part of 
that; I was part of that. My sense is it maybe had a positive 
effect. We will find out. We have seen the license now issued 
for not one but the first two new nuclear power plants that 
have been built in this country for 20, 30 years. I think that 
is pretty good progress. Two out of the three appointees of our 
President actually voted for that. And I think that is a good 
sign.
    So I just, I hope that this hearing focuses more on what 
can we learn from the awful events of Fukushima, what are we 
doing about what we have learned, what is the timetable, what 
do we need to do on this side of the dais to make sure that all 
those lessons learned are implemented in a timely and effective 
way.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    This past Sunday marked the 1-year anniversary of the 
massive earthquake and tsunami that struck Japan and triggered 
the crisis at the Fukushima Dai-ichi nuclear power facility.
    The citizens of Japan--especially the friends and families 
of the thousands of disaster victims--still are struggling to 
put their lives back together. My thoughts and prayers continue 
to go out to all of them.
    We cannot predict when or where the next major disaster 
will occur. We do know, however, that robust preparation and 
response planning are vital to minimize injury and death when 
it does happen.
    That is why over the past year this Committee has exercised 
its oversight authority repeatedly to ensure that our Nation's 
nuclear power plants are prepared for the worst.
    We want to make sure that our nuclear power plants have the 
right tools to respond effectively in any crisis to protect the 
American public.
    Even though the NRC concluded that an accident like 
Fukushima is unlikely to happen in the United States and that 
we have some of the safest nuclear power plants in the world, 
I'm still convinced that we can learn from the Fukushima 
accident.
    As President Harry Truman once said, ``It's what you learn 
after you know it all that counts.''
    Fortunately, we have seen that the NRC--and quite frankly 
the nuclear industry and other stakeholders--agree with 
Truman's statement.
    We all know we can do better, and the NRC is moving forward 
to ensure that the U.S. nuclear industry continues to improve 
its safety and preparedness efforts as life begins to return to 
normal in many parts of Japan.
    Today, I look forward to hearing an update from the NRC 
Commissioners on their actions to enhance safety at our 
Nation's nuclear power fleet in light of the lessons we have 
learned from Fukushima.
    Since our last hearing in December the NRC has made several 
major decisions on how to move forward with these efforts. I am 
especially interested in hearing today about the seven actions 
recently issued by the Commission.
    Before I conclude my brief remarks this morning, though, 
I'd like to repeat something that my colleagues have heard me 
say a number of times before. I doubt that there have ever been 
five better qualified people to serve as Commissioners than 
those who serve the American people today. I still believe 
that.
    Since we last heard from the Commissioners in December, I 
have been encouraged to see that they are still able to get 
things done despite the differences that were clearly in 
evidence in this room 3 months ago.
    For example, since December the NRC has approved the AP1000 
design for new nuclear plants, which uses some of the newest 
and safest nuclear technology available.
    The NRC also reached a true milestone in its history 
recently by approving Southern Company's licenses to build and 
operate two new reactors at the Vogtle site in Georgia. They 
will be the first new nuclear reactors to be built in this 
country in more than three decades.
    In addition the NRC has moved forward on several actions 
relating to Fukushima in an effort to make sure that our 
current nuclear power fleet is safe.
    Both of those developments suggest--at least to me--that 
while interpersonal relationships among Commissioners frayed 
badly last year, the Commission still remains a functioning 
body.
    Moving forward I want to encourage the Chairman and each of 
the other four Commissioners to continue to work every day to 
further improve cooperation and collegiality among the 
Commission members while we attempt to do the same thing here 
in the Senate.
    Most importantly, though, I want us to do everything in our 
power to ensure that safety is never compromised and that 
Congress provides the tools and resources the NRC needs to 
carry out its mission of protecting public safety through 
responsible, effective nuclear regulation.

    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    On the 1-year anniversary of Fukushima the American people 
do want to know that nuclear safety has improved. The American 
people want us to ensure that there will not be a repeat of the 
nuclear disaster in Japan here in the United States, that 
communities across America are safe from harm.
    The Nuclear Regulatory Commission is tasked with protecting 
us. It is not a responsibility that any of them should take 
lightly. The incident at Fukushima has led to a process at NRC 
of developing recommendations to improve nuclear safety here in 
the United States. I have stated before, this process should be 
allowed to continue free of partisan politics.
    At our last hearing we learned from four commissioners who 
said that the agency isn't working as effectively as it should 
under this chairman's leadership, and an inspector general's 
report on the activities of the chairman is pending. It is my 
hope that once the report is released, it is thoroughly 
reviewed and taken seriously by the Committee no matter what 
the findings.
    We also need to have a full slate of commissioners that is 
stocked with the best, most experienced men and women in the 
field. As both Senator Sessions and Senator Carper have said, 
in a bipartisan way, that among those is Commissioner Svinicki. 
She is very well qualified, and I hope that her renomination is 
not being stalled by the White House or others for political 
reasons. That would not serve the public interest in keeping 
folks safe. We need the most qualified people to serve on this 
Commission, and I agree in a bipartisan way that Commissioner 
Svinicki is a very critical member of this Commission. I look 
forward to working with my colleagues on both sides of the 
aisle to make sure that that happens.
    Second, in a February 9th speech at the Platts Eighth 
Annual Nuclear Energy Conference in Rockville, Maryland, the 
chairman spoke of two futures for the nuclear industry. He 
spoke of one future 20 years from now where there was 
continuous process of construction of new reactors, as Senator 
Carper just mentioned. The other future was one where 20 years 
from now we would see an industry dominated by the process of 
continuous decommissioning and embarking on a process of long-
term trend of continuous decommissioning. The first option to 
me is the only way forward for America's energy future. It is 
the only responsible course of action for this Committee to 
follow if we are serious about providing affordable domestic 
energy for seniors, for working families, and for small 
business owners.
    The President has called for an all-out, all of the above 
energy strategy at this year's State of the Union address. The 
President, if he is serious, then he will join those of us who 
seek to strengthen this important energy source and staff the 
Commission with qualified and experienced people.
    I thank you, Madam Chairman. I look forward to the 
testimony.
    Senator Boxer. Thank you so much.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair, and thanks to the 
members of the Commission for being here.
    Clearly we must focus--continue to focus--on the need for 
safety reforms after the unthinkable disaster in Japan 
happened, reminding us--and one of the issues that we always 
have to be aware of with regard to nuclear power, 99.9 percent 
safe is not good enough. Today, tens of thousands of people 
remain evacuated from homes--tens of thousands--due to the 
three Fukushima reactors that suffered meltdowns, an area that 
has elevated radiation levels in everything from fish to rice 
to vegetables.
    I found it interesting that my friend from Alabama used the 
word incident. I suggest you were talking about the Fukushima 
disaster, is that correct? I think that for the people of 
Japan, probably it was not quite an incident. I think it was a 
disaster impacting their country. And when we understand that, 
we have go to understand how serious we must be in making sure 
the nuclear power in this country is safe.
    In a letter to the President following Fukushima I called 
for a moratorium on license renewals until we could examine 
what happened and implement reforms. I am especially concerned 
about that because in the southern part of my State we have a 
nuclear power plant with a similar design of what took place in 
Fukushima. And in fact we have 23 reactors in the United States 
with the same GE Mark I design as Fukushima.
    But license extensions continue without accounting for 
lessons learned. Safety officials expressed concern about this 
design in the early 1970s, and a top NRC official said in 1986, 
``Mark I reactors had a 90 percent probability of bursting 
should the fuel rods overheat and melt in an accident.'' That 
was in 1986.
    A week after Fukushima, the NRC--timing was extraordinary--
relicensed a Mark I reactor in my own State, the Vermont Yankee 
Nuclear Power Plant, for 20 years without taking time to 
examine the implications of Fukushima. Relicensed, Vermont 
Yankee, 1 week after Fukushima. The NRC has granted 71 license 
renewals and has never rejected one. Seventy-one to zero, in 
every single instance the NRC has said it is appropriate to 
relicense a nuclear power plant.
    The NRC also voted 3 to 2 in secret to recommend the 
Government side with Entergy in litigation against Vermont's 
energy future. In my very strong view the NRC's job is safety--
safety. That is what your job is. It is not to tell the people 
of Vermont or any other State how they go forward in terms of 
energy. In my State there is a strong feeling we want to go 
forward with energy efficiency and sustainable energy. I 
believe that we have that right. I believe that every other 
State in the country has that right. If we want to move to 
sustainable energy and not maintain an aging, trouble-plagued 
nuclear power plant, I think we should be able to do that.
    Finally, I am troubled that a year removed from Fukushima 
the NRC recently voted 4 to 1 to move forward with the first 
new nuclear plant license in this country since Three Mile 
Island without requiring the plant to fully incorporate all 
post-Fukushima safety reforms recommended by the panel of 
expert senior NRC staff. The last time we had a hearing with 
the NRC we heard that the chairman, and we have heard it again 
today, was responsible for all of the problems associated; he 
just beats his wife; he is a terrible guy.
    Interestingly enough, I would mention to my colleagues 
there was a 4 to 1 vote on whether or not to go forward with 
the relicensing of the new plant in Georgia. And there was a 
division, chairman voted one way, four members voted the other. 
I would suggest as I did at the last meeting that maybe the 
difference that is taking place here is not the personality 
flaws of the chairman but a philosophical difference that 
exists about how the NRC should proceed.
    I look forward to the questioning, Madam Chairman. Thank 
you.
    Senator Boxer. Thank you so much.
    Senator Merkley, welcome.
    Senator Merkley. Thank you, Madam Chair. Is it my turn for 
questions?
    Senator Boxer. Yes, go ahead.
    Senator Merkley. Great.
    I wanted to ask a couple of things, particularly around the 
venting of gases. Because one of your orders, the third order 
requires improving or replacement of venting systems----
    Senator Boxer. Oh, Senator, this is your time for an 
opening statement.
    Senator Merkley. I want to pass on the opening statement so 
we can get to your testimony.
    Senator Boxer. Well, that is fair enough.
    OK, we will turn to our esteemed panel now, and we will 
start off with our Honorable Chairman Jaczko, and he is going 
to have 5 minutes as chair, and each member will have 3.
    Go ahead, Mr. Chairman.

        STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Jaczko. Chairman Boxer, Chairman Carper, Ranking Member 
Barrasso, members of the Committee, on behalf of the Commission 
I appreciate the opportunity to appear before you to provide an 
update on the NRC's implementation of safety enhancements based 
on our review of the Fukushima Dai-ichi nuclear accident.
    I would stress that the Commission continues to believe 
that there is no imminent risk from continued operation of 
nuclear power plants in the United States. At the same time, 
however, our assessment of the events at Fukushima Dai-ichi 
leads us to conclude that additional requirements should be 
imposed on licensees to increase the capability of nuclear 
plants to mitigate and protect against beyond design basis 
extreme natural phenomena.
    When we last appeared before you in December the Commission 
was considering the staff's report on prioritizing the 
recommendations of the near-term task force into three separate 
tiers. Tier 1 consists of actions to be taken without delay and 
for which sufficient resource flexibility, including the 
availability of critical skill sets, exists. Tier 2 actions can 
be initiated as soon as sufficient resources or critical skill 
sets become available. And finally, Tier 3 recommendations 
require further staff study or shorter-term actions be 
undertaken first.
    I would stress that these are not necessarily in a priority 
order. While Tier 3 items may require additional staff study, 
they are not necessarily actions that are of less importance to 
safety.
    As a result of public meetings with stakeholders, including 
the industry and the public, and with the Advisory Committee on 
Reactor Safeguards, there have been a number of enhancements to 
the Tier 1, Tier 2, and Tier 3 recommendations. As has been 
mentioned, on March 12th the Commission issued three 
immediately effective orders to U.S. commercial nuclear 
reactors. The orders reflect a tremendous effort on the part of 
the NRC staff and the Commission to produce a comprehensive 
package in an expedited manner.
    The first order requires the plants to better protect 
safety equipment installed after the September 11th, 2001, 
terrorist attacks and to obtain sufficient equipment to support 
all reactors at a given site simultaneously. The second order 
requires the plants to install enhanced equipment for 
monitoring water levels at each plant's spent fuel pool.
    And the third order applies only to U.S. boiling water 
reactors that have Mark I or Mark II containment structures. 
These reactors must improve venting systems or for the case of 
the Mark II plants, which is a smaller number, install new 
systems that help prevent or mitigate core damage in the event 
of a serious accident.
    For all three of these orders licensees are required to 
submit their plans for implementing the requirements to the NRC 
by February 28th, 2013, and complete full implementation no 
later than two refueling cycles after submittal, or December 
31st, 2016, whichever comes first.
    Additionally, licensees are required to provide periodic 
status reports so that staff can monitor their progress.
    Now, in addition to these three orders licensees were also 
issued a request for information. Licensees were asked to 
reevaluate the seismic and flooding hazards at their sites 
using current NRC requirements and guidance and identify 
actions that are planned to address vulnerabilities. Licensees 
were requested to develop a methodology and acceptance criteria 
and perform seismic and flooding walk-downs.
    Finally, licensees were required to assess the ability of 
their current communications to perform under conditions of 
onsite and offsite damage and prolonged loss of electrical 
power. As part of this initiative they were also requested to 
assess their staffing levels needed to respond to a large scale 
natural event and to implement strategies contained in the 
emergency plan.
    There are remaining Tier 1 recommendations which address 
station blackout in the integration of emergency procedures. 
These continue to be worked by the staff. The station blackout 
rulemaking is a high priority activity with a goal of 
completion within 24 to 30 months from October 2011. And the 
staff has recently provided--or is finalizing an advanced 
notice of proposed rulemaking for that particular rulemaking.
    Now, we anticipate beginning work on Tier 2 recommendations 
when we have the necessary information from the Tier 1 
activities and when we can free up critical resources from 
these efforts. The issuance of the orders and letters on March 
12th is a significant step forward on our post-Fukushima 
efforts. We are making strong progress, and as always I 
continue to be impressed by the staff's dedication and 
expertise.
    There is still, however, a great deal of work ahead of us, 
for both the Commission and the staff. This past year was very 
challenging for the NRC, but it was also a very productive year 
for us. As we look forward the agency expects to meet new and 
unanticipated challenges. We are confident that the NRC will 
continue to ensure the safe and secure operation of the 
existing licensed facilities while also ensuring the safe and 
secure construction and operation of new nuclear plants, 
possibly including small modular reactors.
    So with that, I appreciate the opportunity to appear before 
you and would be happy to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Jaczko follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Senator Boxer. Thank you, Chairman.
    And Hon. Kristine Svinicki.

     STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Boxer, Chairman Carper, 
Ranking Member Barrasso, and members of the Committee, for the 
opportunity to appear before you today on the topic of the 
NRC's implementation of recommendations for enhancing nuclear 
safety in the 21st century.
    In his testimony on behalf of the Commission, Chairman 
Jaczko has described the progress that NRC has made to further 
strengthen nuclear power plant safety. I also join Chairman 
Jaczko in acknowledging the hard work of the NRC staff and 
their sustained efforts toward the progress that NRC has made 
to date. As he has described, we have now issued a series of 
orders to nuclear power plant licensees, which require features 
to mitigate beyond design basis extreme natural events, require 
hardened venting systems, and require greater capacity of 
measurement for spent fuel storage pool instrumentation.
    We are also requiring that nuclear power plant licensees 
conduct system walk-downs by teams of relevant experts and 
undertake substantial reevaluation of seismic and flooding 
hazards at their sites using current NRC requirements. 
Licensees must also identify actions to address vulnerabilities 
found. The NRC will assess the results of these evaluations to 
determine whether additional regulatory actions are needed.
    In implementing these recommendations the agency's broad 
set of stakeholders have been engaged through multiple public 
meetings. We have benefited from the insights and perspectives 
of nuclear operators, nuclear safety and environmental groups, 
and the public. I believe that all of these efforts have 
strengthened the NRC's activities in response to the Fukushima 
events and will continue to do so.
    Additionally, as the NRC acquires more information about 
the accident we will assess the impact of such information on 
actions already underway and consider appropriate actions going 
forward.
    Thank you, and I look forward to the Committee's questions.
    [The responses of Ms. Svinicki to questions for the record 
follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you very much, Commissioner.
    Hon. George Apostolakis.

      STATEMENT OF HON. GEORGE APOSTOLAKIS, COMMISSIONER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Chairman Carper, Ranking 
Member Barrasso, and members of the Committee, good morning.
    As I reflect on the lessons from Fukushima 1 year after the 
accident I find that my views have evolved. The first time I 
testified on this subject before you, I indicated that the 
accident was a lesson in humility. I said that as a community 
of safety analysts. We had been pretty confident that there 
would be no new surprises, but Fukushima challenged that 
belief.
    As more information was obtained, I then said the accident 
was not of extremely low probability, it was not unthinkable, 
it was not unforeseen. Today I can report that others have 
reached a similar conclusion. For example, the report issued by 
the Carnegie Endowment for International Peace last week 
states, ``The plant would have withstood the tsunami had its 
design previously been upgraded in accordance with state of the 
art safety approaches.''
    Furthermore, a report by the American Nuclear Society 
Special Committee on Fukushima also issued last week states, 
``The committee believes that in responding to the accident at 
the Fukushima Dai-ichi plant human error and flaws in 
governance and regulatory oversight contributed to the severity 
of the accident.''
    In light of these observations it is reassuring to know 
that the NRC is a strong and independent regulator, our 
decisionmaking progress is open and transparent, and we have 
long recognized the importance of a positive safety culture. 
However, there are still lessons to be learned from the 
accident. For example, we are requiring all operating plants to 
reevaluate their design bases and strengthen mitigation 
strategies for external events, taking into account all units 
at the site.
    I am pleased with the progress the Commission has made as 
well as the fact that the process for reaching decisions has 
been transparent and methodical. I continue to work with my 
fellow commissioners to apply the lessons learned from 
Fukushima.
    Thank you very much.
    [The responses of Mr. Apostolakis to questions for the 
record follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you very much.
    And Hon. William Magwood.

           STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Thank you, Chairman.
    Chairman Boxer, Chairman Carper, Ranking Member Barrasso, 
members of the Committee and Subcommittee, it is a pleasure to 
be here before you today to talk about our work regarding the 
Fukushima disaster.
    First, let me say: U.S. plants are safe. We are quite 
confident about that. But as we reported during our last 
appearance before this Committee, our agency has moved swiftly 
and systematically to understand the events in Japan and to 
design a prudent, effective regulatory response to address the 
lessons of Fukushima. This matter has been our central focus 
over the last year. The Commission has devoted a large portion 
of its time and energy to this challenge.
    The Chairman has already outlined the details of our 
response, so I won't repeat that now. But let me say that while 
we have moved quickly, I am very confident the decisions we 
have made to date are appropriate and when fully implemented 
will address the large portion of any risk that we revealed by 
our insights gained from studying the Fukushima event.
    This week, we met with many of our international colleagues 
at the 24th Regulatory Information Conference. From my 
conversations with our colleagues it is clear that many of the 
world's regulators have viewed these issues in much the same 
way. I expect that the response to Fukushima across the world 
will have considerable similarity in many countries.
    I want to point out the NRC staff has performed in an 
outstanding fashion in pursuit of this outcome. They have 
worked tirelessly to review these complex issues in a holistic 
fashion, working with our many stakeholders and consulting with 
the Advisory Committee on Reactor Safeguards. I would like to 
recognize the valuable contributions provided by Marty 
Virgilio, who served as chairman of the steering committee that 
leads this overall effort in the agency. Marty recently 
announced that he will soon retire after 34 years with the 
agency, and his leadership will be sorely missed.
    Finally, I want to conclude by extending my thoughts and 
encouragement to the citizens of Japan as they continue to 
recover from last year's earthquake and tsunami. Commissioner 
Ostendorff and I visited the Fukushima site in January and saw 
first-hand how hard our friends in Japan are working to deal 
with the aftermath of what they now call 3/11. That term has a 
deep, enduring resonance that Americans understand quite well. 
I wish our Japanese colleagues the very best success in their 
efforts.
    Thank you for your attention. I look forward to your 
questions.
    [The responses of Mr. Magwood to questions for the record 
follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you, Commissioner.
    Commissioner Ostendorff.

           STATEMENT OF HON. WILLIAM C. OSTENDORFF, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Madam Chairman, Chairman Carper, 
Ranking Member Barrasso, members of the Committee.
    It was just over 1 year since an earthquake and tsunami 
devastated Japan and led to a severe accident at the Fukushima 
Dai-ichi. Last July the Fukushima Task Force of the NRC 
concluded that a sequence of events in the United States 
similar to that experienced in Japan is unlikely. The Task 
Force also concluded there is no imminent risk from continued 
operation of U.S. nuclear power plants. I believe those 
conclusions remain true today. Nevertheless, I continue to 
support the NRC's actions to make our plants even safer.
    The NRC has taken positive, concrete steps to strengthen 
the NRC's regulatory framework in response to Fukushima. I join 
my colleagues here at this table in also commending the men and 
women of the NRC for their hard work. I have also appreciated a 
chance to engage with my four colleagues to my right.
    Since I last appeared before this Committee in December I 
voted to approve the three orders that were submitted to the 
Commission in February. As mentioned by others, those orders 
were issued earlier this week. I think it is important for this 
Committee to know that while we may have had slightly different 
variations on the bases for these orders that all five of us in 
a unanimous act approved all three orders. I think that is a 
significant statement.
    Senator Boxer. It is.
    Mr. Ostendorff. To me these three orders represent sound 
policy decisions for nuclear safety. And as Commissioner 
Magwood mentioned, I think we saw in our visit to Fukushima the 
importance of us taking strong, decisive action as a regulator.
    I am confident of the path the NRC is on today. I think we 
are taking responsible actions. I appreciate the chance to 
appear before this Committee, and I look forward to your 
questions.
    [The responses of Mr. Ostendorff to questions for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you, sir, very much.
    Commissioner Magwood, you said our nuclear plants are safe. 
I just want to point out that is exactly what the Japanese said 
before Fukushima. So I think we need to be cautious.
    What I think the answer is, we are doing everything in our 
power to ensure that they are safe. And that is crucial.
    So I have some questions. Chairman Jaczko, the NRC staff 
has proposed two rulemakings to implement high priority safety 
recommendations. I am very happy to hear everybody supported 
these. It is very, very heartening to me personally.
    And one of those rules would require plants to have the 
ability to safely operate when they lose all electric power, a 
station blackout. Another rule would require emergency 
operating procedures and guideline to address severe accidents.
    Chairman, when will the NRC propose and finalize these 
rules?
    Mr. Jaczko. Right now, the station blackout rule, the first 
proposal, what we call an advanced notice of proposed 
rulemaking, is due this week to be finalized and then to be 
released to the public. The emergency operating procedures, the 
second rule you referred to, an advance notice is also planned 
for next month.
    The station blackout rule, the Commission has asked for 
that to be done in about 24 months from now. And that would put 
it somewhere in the 2014 timeframe. The second rule right now I 
think is on a much later schedule to be finalized, closer to 
2016 or sometime in 2016.
    So I feel comfortable we are on a good track with the 
station blackout rule. That is a high priority, the Commission 
has recognized that. I certainly do have concerns that the 
second rule will be a challenge for us to not only complete the 
rule itself, but the implementations within the 5 years that I 
think the Commission has laid out. So again, I think part of 
our work in the next couple of years is to figure out ways we 
can get some of this work done a little bit more timely.
    Senator Boxer. Right, because as I understand it the Safety 
Commission recommended that these all be done in 5 years; is 
that correct?
    Mr. Jaczko. Well, the Commission itself encouraged the 
efforts to get these things done within 5 years. And we did 
have our Advisory Committee on Reactor Safeguards that 
encouraged some of the rulemakings be accelerated, the station 
blackouts in particular, because it is such an important piece 
of the Fukushima response.
    Senator Boxer. Do you feel comfortable that on this issue, 
you are speaking for everyone when you say you are striving to 
meet that 2014 and 2016 date, you are striving? Because if not, 
I want to just ask, let me just not put you on the spot, 
because you can't speak for everyone. Does anyone disagree that 
those two rules, you should do everything in your power to 
implement the first one, 2014 station blackout and the second 
one, 2016? Is there any dissent?
    OK. The NRC staff has stated that high priority safety 
recommendations should be implemented without delay. We talked 
about them, the NRC told its staff to strive by 2016. So I just 
want to make sure that you would keep us up to date, our 
Committee, on the progress being made so that if there is 
slippage we would know about that. Would you do that, Chairman 
and Commissioners, if you see things slipping?
    Mr. Jaczko. Absolutely.
    Senator Boxer. Otherwise, we are going to assume it is on 
track, unless you tell us. I don't want to be surprised and 
find out it is going to take 12 years or 14, because that is 
what happened last time, after 9/11, the recommendations took I 
think 10 years or more.
    Mr. Jaczko. Chairman Boxer, if I could just add right now, 
one of the areas where I do have some concern is with the 
efforts to re-examine the seismic hazards at the nuclear power 
plants. This is an effort right now that would probably push 
out to the earliest completion date, around some time in 2017, 
the latest completion dates for some--the lower risk plants 
into 2019. So that is one that at this point does appear to be 
off target a little bit.
    And given the importance of seismic hazards, and I think as 
Commissioner Apostolakis said this is an area in which we 
recognize that there is new information that tells us that the 
plants may not be designed to the right seismic standards. For 
this one to be taking so long is a bit of a concern to me.
    Senator Boxer. Well, I couldn't agree with you more. At 
another time in place, and also I will work with all of you, 
this is very concerning. Because in California we have updated 
reports that are not good, that say there has been a lot of 
changes.
    Did you want to add something?
    Mr. Apostolakis. Yes, I would like to add something. First 
of all, I agree with the Chairman's statement. There will be a 
lot of activities related to seismic upgrades. And right now 
the focus is on the plants east of the Rocky Mountains where 
the U.S. Geological Survey has issued new seismic data. And the 
staff will prioritize in terms of risk the activities there.
    So a lot of it will have been accomplished before these 
dates, after the 15 years. It is that, according to the staff 
and my understanding, it is the plants with low risk that we 
will have to do some upgrades, perhaps, that will take longer. 
And the California plants, by the way, according to what I know 
today, will complete their upgrades before the 5 years.
    Senator Boxer. Good.
    OK, one last question. Chairman Jaczko, when the Fukushima 
reactors released large amounts of radiation, people were 
evacuated, and many have yet to return home. Does the NRC 
consider harmful impacts beyond the radiation exposure impact, 
including such things as evacuations, the clean up of 
contamination, when determining whether to require safety 
measures at our nuclear reactors? In other words, the costs and 
the benefit ratio would change, it seems to me, if the NRC 
considered what it would take. Just look at my southern 
California plant with almost 9 million people living within 50 
miles.
    So I am interested as to whether or not you consider 
harmful impacts beyond the public radiation when you determine 
the cost benefit of improvements.
    Mr. Jaczko. We really don't. Our focus is really primarily 
on the direct and the short-term and then the longer-term 
direct health impacts from radiation exposure when we are 
making our safety judgment. This is clearly an area that I 
think we need to look at and we need to examine. Because as you 
look at the Fukushima event that is really right now what is 
going to be the long-term impact. And it is significant.
    Senator Boxer. It is. When I asked--and I am going to give 
everybody an extra 2 minutes because I have gone over--when I 
asked the sheriff near my San Onofre plant what she thought, I 
said, how do you get people out of here? She said, well, if it 
were to happen, an earthquake were to happen during rush hour, 
this is the road. And you can't even move on that road.
    So it seems to me there needs to be more work done. Because 
radiation is the worst of the things that can happen. But being 
homeless is a whole other situation. Not being able to 
evacuate.
    So I would like to work with all of you on that. Would you 
agree that you would be open to looking at that as far as cost-
benefit ratio? Thank you. I see everybody nodding.
    Senator Barrasso, you can go forward with 7 minutes, sir.
    Senator Barrasso. Thank you very much, Madam Chairman.
    I think we have heard good news, U.S. plants are safe, 
there are steps to make them safer, and we are on the right 
path. I have heard that across the board. The views have 
evolved; there have been lessons learned. So I do have a couple 
of questions.
    Specifically, there was actually a critical report that 
came out by a group called the Union of Concerned Scientists, 
critical of the NRC's response to address protecting U.S. 
plants. The report goes on, and I am going to ask Commissioners 
to comment on it, it says that U.S. reactors remain vulnerable 
to Fukushima-like severe disasters, the NRC does have a plan to 
reduce the vulnerabilities but must proceed more expeditiously 
to fully implement the lessons learned from Fukushima.
    Their critical report goes on to say, unless the NRC 
strengthens measures to prevent and mitigate such beyond design 
basis accidents, it may be only a matter of time before a 
similar disaster happens here. I know you are very thoughtful 
on this; we have seen that views have evolved. I would maybe 
start with Commissioner Magwood, and tell me what your thoughts 
are on this report that seems to be critical.
    Mr. Magwood. Well, let me not overstate or take a defensive 
reaction to that. It is easy to be defensive on these things. 
But I think that the thought that UCS is bringing out, which is 
that we need to take action, is an appropriate thought. And the 
Commission fully agrees with that.
    We have already agreed to take steps as a body and as an 
agency that will enhance the safety of U.S. plants, to make 
sure that a Fukushima-type scenario doesn't unfold. That said, 
I think that our infrastructure, our regulatory approach, the 
practices at our plants, our equipment, our configuration, our 
design bases would prevent Fukushima from occurring under 
similar circumstances at a U.S. plant. I just don't think it 
would happen.
    But we can still improve, and we are going to improve.
    Senator Barrasso. Thank you.
    Commissioner Svinicki.
    Ms. Svinicki. Senator Barrasso, I agree with my colleagues. 
I think the chairman has outlined the actions that we are 
taking in response to just that concern, to learn the lessons, 
to move forward.
    I would say on the time lines, I think the Commission, to a 
person, has urged the NRC staff to come up with schedules that 
are implementable but yet have the appropriate sense of urgency 
about moving forward. I think they have done their best. I 
agree with my colleagues who say as we move forward we need to 
continue to look at those timeframes. If things can be 
accelerated, we should do that.
    But I think right now we are moving forward on a solid 
plan. And as Commissioner Ostendorff mentioned, on a Commission 
that has strong and occasionally divided views, there was 
unanimous support for the actions that we have issued.
    Senator Barrasso. Great.
    Commissioner Apostolakis.
    Mr. Apostolakis. I disagree with the statements from UCS. I 
don't think that what happened at Fukushima can happen here. 
And I repeat, it was not unthinkable. They made terrible 
mistakes.
    Senator Barrasso. And you did comment that actually over 
the course of a year, I think your phrase was, my views have 
evolved. So it is helpful to know that people aren't kind of 
locked, decided, this is it. We can study more, learn more, and 
views can evolve in ways that can improve the situation.
    Mr. Apostolakis. Yes, they have evolved. Yes.
    Senator Barrasso. Thank you.
    Commissioner Ostendorff.
    Mr. Ostendorff. Thank you, Senator. I agree with the 
comments of my colleagues. I also disagree with the UCS report, 
and I would like to make two comments. I agree with the 
Chairman's and Commissioner Apostolakis' comments on the 
seismic piece. I think we are concerned with the overall time 
period to look at seismic hazards. And I think our staff 
requirements memorandum that was issued a few days ago does 
request that our staff and industry look at ways that might be 
alternatives to speed up this process. I think we all want to 
move forward as quickly as we can. That said, I think we are 
doing it very responsibly.
    The second piece, if I can comment just very briefly, 
Senator, is the Chairman--I agree with his comments completely 
on station blackout. I think one of the things to throw into 
the mix here is the fact that many of the nuclear power plants 
in this country, licensees have already ordered additional 
portable diesel generators, portable battery charging 
equipment, and other steps they are taking to enhance their 
ability to deal with the loss of all AC power. That is 
happening now.
    Senator Barrasso. Thank you.
    I noted that a Member of Congress, Anita Lowery, recently 
wrote a letter to the NRC asking that the Commission expand the 
evacuation zone around nuclear power plants to 50 miles. It is 
a number--50 miles is something that the chairman just 
mentioned in terms of some of the specific plants in 
California. The NRC has had a report on NRC Clarifies 
Misconceptions about Emergency Preparedness. It states that it 
is important to note that the exact size and shape of the 
specific conditions at each site are unique and are developed 
through detailed planning that looks at the specific conditions 
at each site and demographic information.
    In addition, it says these zones are not limits and are 
meant to be expanded as necessary.
    You are shaking your head, Mr. Magwood. Could you comment 
on that and your specific thoughts?
    Mr. Magwood. I think that statement is accurate. The 
emergency planning zones are just that, they are planning 
zones. They don't represent necessarily what would happen in 
the case of an actual emergency. In the case of an actual 
emergency we would respond appropriately depending on what was 
actually going on.
    So I am comfortable with the regime we have in place. But I 
should say that as part of our post-Fukushima review the staff 
does anticipate a look at the 10-mile EPZ and the question 
about whether it should be expanded. So we will be analyzing 
that in the coming months and years.
    Senator Barrasso. And then a final question to all 
Commissioners. We talked about the chairman's statements 
February 9th, about the two potential paths and the futures 20 
years from now, new nuclear plants licensed and the life of 
existing plants being extended, which of course is, in my 
opinion, the right path. The other future was for nuclear 
plants in a downward spiral of decommissioning.
    Which path is the right one for us to be on now?
    Commissioner Magwood, then we can run down the line.
    Mr. Magwood. I don't think those paths are really--will be 
decided by regulators. I think those paths will probably be 
decided by economic considerations that are beyond the scope of 
our agency. So I don't really have much more to say on that 
one.
    Senator Barrasso. And my time has expired. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    I am going to ask unanimous consent to place in the record 
the biography of the author of the Union of Concerned 
Scientists' report. His name is Dave Lochbaum, he is one of the 
Nation's top independent nuclear power experts. He has been 
quoted in the Wall Street Journal, all of our major newspapers. 
And he is--he has studied the crisis at Fukushima and issued 
this report. Since you are bashing it, I just through we would 
put his credentials, and I would match those against anybody 
sitting across from me.
    [The referenced biography follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Boxer. And I just want to say, when we bash a 
report, maybe we will just have to have them come up here. I 
think we are going to do that in the near future.
    I am turning it over to Senator Carper.
    Senator Carper. Earlier in your statements I think you 
indicated two of you traveled together to Japan to personally 
visit the area where the incident or the disaster occurred. I 
think it was probably closer to a disaster myself.
    Just give us a sense for the views of the people of Japan 
toward our intervention, toward the assistance that we provided 
for them. I would be interested in hearing that. Sometimes we 
help folks in distress. I was in Pakistan a year or so ago 
after a big flood. We were providing enormous help for a 
million or so refugees. I didn't feel a lot of understanding or 
appreciation for that.
    I would just welcome what you felt when you were in Japan 
in terms of the recognition of the work that we have done to 
help them.
    Go ahead, Commissioner Ostendorff.
    Mr. Ostendorff. Senator Carper, I think that is a great 
question. I think all of us have had different interactions. 
But I think we have heard nothing but gratitude and tremendous 
thanks offered to the U.S. Government, the military, to the 
NRC, to the Department of Energy, and other cabinet agencies. I 
know that when Commissioner Magwood and I were in Japan in the 
middle of January, we received a lot of thanks. I know that a 
number of us were at a Japanese embassy event last week where 
we also received thanks, along with other sectors of the 
government in this country.
    And the Chairman led a commemoration ceremony this past--
just 3 days ago at the NRC, where the Japanese Ambassador to 
the United States also passed on his significant thanks to our 
country. I think it has been very positive.
    Senator Carper. Commissioner Magwood.
    Mr. Magwood. I echo that. I have had a lot of conversations 
with people from Japan, and there is a great deal of 
appreciation for the contributions of NRC in particular. I 
think a lot of people recognize the expertise NRC brought at a 
critical time was very important.
    But really, to the overall U.S. response, I heard a lot of 
really positive things about our military and particularly the 
Navy and the response that the Navy provided to the incident, 
helping logistically and providing supplies. So I think we have 
made a lot of friends in Japan in the last year.
    Senator Carper. Good.
    During the time that you were there or the time since, 
would you just share with us how many lives were lost because 
of this disaster?
    Mr. Magwood. Because of Fukushima?
    Senator Carper. Yes.
    Mr. Magwood. That we are aware of, none. I believe that 
there were two people who were killed at the plant when the 
tsunami swept in; they were drowned. But other than that I am 
aware of no fatalities or no expected fatalities resulting from 
the nuclear incident.
    Senator Carper. Do any of the Commissioners have different 
information on that?
    Commissioner Svinicki.
    Ms. Svinicki. Senator Carper, in addition to the two 
workers who I also understand were immediately drowned onsite 
in the event, I am aware of two workers that had been engaged 
in the heroic recovery efforts under extremely uncomfortable 
and adverse conditions. I understand that these two individuals 
have died of heart attacks. I don't know the direct relation, 
but some of the workers have to work in anti-contamination 
clothing. It is very hot, it is very uncomfortable, and it may 
be that they had a stress reaction.
    But heroic efforts to recover after the event, of course, 
required tremendous efforts by workers. I am aware that two 
additional workers--it was not a radiological event, but it was 
a heart attack from the extreme efforts they were making.
    Senator Carper. All right.
    Just before I move on to my other questions, in the United 
States, since the first nuclear power plants were built, how 
many lives have been lost? Does anybody know or recall, off the 
top of your head?
    Mr. Ostendorff. Senator, I believe the answer is none, as 
far as any deaths due to radiation exposure at a nuclear power 
plant in this country or any of our nuclear-powered warships.
    Senator Carper. Does anybody have different information?
    Mr. Jaczko. At the risk of being contrary here, I think it 
is just very important that we not send a signal that Fukushima 
was not a significant incident.
    Senator Carper. I don't think anyone is suggesting that.
    Mr. Jaczko. Certainly I have been in international meetings 
where people have asked similar questions and insinuated that 
it is really an event that we can ignore because of that. And I 
think it is very important----
    Senator Carper. Let me just interrupt you. You can stop. 
Think of the lives of people, where they live, 12 miles around, 
in a radius around Fukushima of 50 miles, their lives have been 
badly, badly disrupted and in many cases will be so for years. 
So no one is attempting to diminish that.
    I chair the subcommittee here on clean air. We have had any 
number of hearings here in recent years where we talk about the 
number of people, not whose lives have been disrupted but who 
have been killed in this country because of dirty air, because 
of the dirty air that we breathe put out by utilities, which in 
many cases blows from the Midwest to my part of the country, 
where Senator Sanders and I happen to live and represent 
people.
    So I just think we need to put this in a little bit of 
perspective, and I appreciate you helping us to do that.
    Anybody listening to this, and this hearing is televised, I 
believe at least on C-SPAN, but anyone listening, they may be 
thinking, what is an order, what are these different tiers, 
these letters, people trying to make some sense of it. Can 
somebody just in about a minute just try and explain so that a 
regular American citizen watching this hearing would know what 
we are talking about, please?
    Commissioner Svinicki.
    Ms. Svinicki. Senator, in perhaps layperson terms, an order 
is a set of compulsory actions that the NRC has authority to 
issue to private entities such as nuclear power plant 
operators. So under our authorities to regulate nuclear safety, 
we can issue a directive or order to compel actions. And 
Chairman Jaczko has described what those actions were, so when 
we say orders, it is separate from the long process of 
establishing a new regulation. We can through an order take 
action very quickly.
    Senator Carper. And how does an order differ from a letter, 
please?
    Mr. Jaczko. Well, an order is a requirement that a power 
plant has to take. The letter is kind of the first step in 
gathering information. So it is something that they have to 
tell us; it is information that they are required to provide to 
us. But in and of itself it doesn't necessarily direct any 
particular action. So in many cases it will be the precursor to 
additional action as we gather the information.
    Senator Carper. And I will stop with this, but I understand 
that in terms of the agreement among the Commissioners has 
there been unanimous agreement on the orders that have been 
issued. And essentially unanimous agreement in terms of the, 
what is Tier 1, what should be a Tier 2 and a Tier 3 and the 
time line, is there broad agreement on those points?
    [Witnesses respond in the affirmative].
    Senator Carper. That is good. That is encouraging. Thank 
you.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Madam Chairman and members here, I just 
came to apologize for not being here. We are doing our Armed 
Services Committee hearing right now, and if it is all right 
with you, I want to pass for a moment here to reprogram my 
mind.
    Senator Boxer. Absolutely.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair.
    I want to pick up on a statement that Commissioner Magwood 
made a moment ago in response to question from Senator 
Barrasso. When the Senator asked him about the future of 
nuclear power in this country, as I heard Mr. Magwood, he said 
the future of nuclear power in America will not be primarily 
made by the Commission but by ``economic considerations.''
    And I strongly disagree with what Commissioner Magwood 
said, because the future of nuclear power will 100 percent be 
determined by whether or not the taxpayers of this country 
continue to provide huge, huge financial support to the nuclear 
power industry for the indefinite future. That is the issue.
    And I always find it amusing that at this moment in 
American history, when we have a $15 trillion national debt, 
when our middle class is declining, when poverty is increasing, 
and I have many of my friends, many on this Committee, who say 
we have to cut Social Security, we have to cut Medicare, we 
have to cut Medicaid, we just can't afford it. But when it 
comes to taxpayer support for nuclear power, there is no end in 
sight. Billion after billion after billion.
    So here is my question for the Commission. And correct me 
if I am wrong, now. My understanding is that the nuclear power 
industry is unable to get support insurance from Wall Street 
and the private sector because it is too risky, and that we 
have a Price-Anderson piece of Federal legislation which 
guarantees that if, God forbid, there is a major nuclear power 
disaster in this country, taxpayers would have to pay billions 
and billions and billions of dollars in liability. Am I wrong 
on that?
    Mr. Jaczko. Senator, the way I would characterize it, there 
are really two tiers to the Price-Anderson system. The first 
tier is private insurance.
    Senator Sanders. Absolutely. And if it's a disaster, say a 
$50 billion disaster, would the taxpayers of this country have 
to pay tens of billions of dollars?
    Mr. Jaczko. Beyond the $15 billion.
    Senator Sanders. Now, many of my good friends here say, 
well, get Government off the backs of the business community. 
So why doesn't nuclear power go to Wall Street and the private 
sector and get that insurance?
    Mr. Magwood, we believe in the genius of the private 
sector. Why isn't Wall Street helping out the nuclear power 
industry, and why not?
    Mr. Magwood. Well, the only thing I can really say to that, 
Senator, that I am aware of, no one has actually tried to go to 
Wall Street to do this.
    Senator Sanders. So the Federal Government steps in because 
nobody in the nuclear power industry can get on the phone and 
call up Wall Street and say, we don't want taxpayer support; we 
don't like the Federal Government? No one has thought about 
going to the insurance industry?
    Mr. Magwood. And the Price-Anderson structure has been in 
place for a very long time.
    Senator Sanders. That is right. Would you agree with me 
that maybe we want to, because we are so concerned about our 
deficit, that we may want to end Price-Anderson?
    Senator Barrasso, are you going to work with me on that? 
Because we don't want the Federal Government getting involved 
in the private sector, right?
    All right, you have no comment.
    Second thing. The new plant in Georgia is going to require, 
as I understand it, about $8 billion of loan guarantees. So my 
question, once again, the Federal Government, why are we 
getting the Federal Government involved in the genius of the 
private sector? Why do we need loan guarantees? Why aren't they 
going to Wall Street if nuclear power is so safe and can make 
profits for the industry? Am I right in saying that in fact we 
have proposals now for tens of billions of dollars in loan 
guarantees for the future of the nuclear industry? Anyone 
disagree with that?
    Last point I want to make, if we are going to get rid of 
the waste that exists, nuclear waste in Vermont and plants all 
over the country, it is a very, very expensive proposition. Do 
you think we can get private sector to get involved in that 
rather than tens of billions of dollars of Federal money? 
Anyone think that is a good idea? I don't hear that.
    So here is the point. The point is that despite all the 
talk of many of my friends about how the Government should not 
be involved in picking winners and losers, of course the 
Government 60 years ago picked a winner. And that winner is the 
nuclear power industry. Tens and tens and tens of billions of 
dollars of direct subsidies are going to that industry.
    Now, my last question in this regard is, when does it end? 
I am a believer in sustainable energy. I think it is absolutely 
appropriate that when you have new technologies it does receive 
Federal support. The nuclear industry is now in this country 60 
years old. It is a mature industry. When do we get it off of 
the Government welfare programs? When does it begin to stand on 
its own?
    Is 60 years enough, Mr. Magwood? How many more years do you 
foresee the Federal Government having to support the nuclear 
power industry?
    Mr. Magwood. As I indicated earlier, the economic issues 
are really beyond our scope.
    Senator Sanders. Whose scope is it? Do you think the 
Federal Government is going to be there another 60 years 
supporting these guys?
    Mr. Magwood. I think I would defer the question to the 
Department of Energy.
    Senator Sanders. Well, that really--Ms. Svinicki, how many 
more years do you think the Federal Government has to subsidize 
nuclear power?
    Ms. Svinicki. I see these as policy deliberations that 
occur in the Congress. The loan guarantee program is in law and 
executed by the Department of Energy.
    Senator Sanders. Mr. Chairman.
    Mr. Jaczko. Senator, when we look at nuclear power plants, 
one of the things we want to make sure is that they have the 
financial resources to be able to support safe operation.
    Senator Sanders. Right.
    Mr. Jaczko. And so it is very important that these 
utilities can finance the plants, that they can ensure that 
they have appropriate work force. So in the end these finances 
do have an impact on safety. And it is important----
    Senator Sanders. But why can't the private sector make them 
safe? My friends over here tell me about the genius of the 
private sector. They don't want the Federal Government involved 
in all kinds of private sector activities. Why can't the 
private sector pay for that?
    Mr. Jaczko. Well, I think, Senator, as you know, we try and 
stay out of those specific decisions and try to remain as an 
objective determiner of safety. And no more would we want to 
make safety decisions that are based on cost, I think, in a 
good way than in a bad way.
    Senator Sanders. Mr. Apostolakis, how many more years does 
the Federal Government have to continue to subsidize----
    Mr. Apostolakis. Senator, I think these are decisions for 
the political leadership of the country, not for the 
Commission.
    Senator Sanders. OK.
    Mr. Ostendorff, how many more years?
    Mr. Ostendorff. Senator, I don't have anything to add to 
what my colleagues have said.
    Senator Sanders. Let me just conclude. The Federal 
Government has picked winners and losers. The big winner is the 
nuclear power industry, and all of my conservative friends who 
want the Federal Government not to be involved in energy are 
very silent on their desire to pump tens of billions more into 
nuclear power.
    I yield back.
    Senator Carper [presiding]. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First let me again 
apologize for not being here because of the conflict with Armed 
Services, which is still going on.
    Let me start off by saying the short response to our good 
friend Senator Sanders is, I disagree with everything he is 
saying.
    [Laughter.]
    Senator Inhofe. But what I would like to do, Mr. Chairman, 
I had made a request back in December. In December I asked the 
question for the record that you would send me something, in 
talking about this allegation of harassment and intimidation 
that you are being accused of. And I would ask what actions you 
plan to take to address the allegations of intimidation for 
safety managers. Do you want to respond to that briefly?
    Mr. Jaczko. Well, I think, Senator, I certainly appreciate 
your question. I think as I talked about at the last hearing, 
if there is any time I have ever done anything unintentionally 
to cause anyone to feel----
    Senator Inhofe. No, the accusations are there. I am saying, 
how are you going to respond to the accusations of intimidation 
and these things?
    Mr. Jaczko. As I said, I think at the last hearing, I think 
that I have never done anything intentionally to intimidate or 
do the things that I think were being talked about the last 
time. So in the end, what I think I am interested in is making 
sure that we continue to do our job, that the staff is 
continuing to be focused on our important safety mission, that 
the Commission continues to make timely decisions in an 
effective way.
    Senator Inhofe. OK, that is good, that is what you said 
last time.
    Let me just get to this thing on, first time in 34 years we 
have issued licenses to build two new reactors. We want to move 
forward with this. And Mr. Chairman, you had said you split 
with the rest of the Commission. And you said, I can't support 
issuing this license as if Fukushima had never happened.
    Now, I want to ask any of the other four Commissioners who 
would like to respond to this, No. 1, get into the record, 
unless it happened before I came down here, the differences 
between the regulatory performance in Japan and the United 
States. I am talking about the fact that they didn't have an 
independent NRC, which we put together back in 1974. I'd like 
to have one of you kind of describe to us the differences and 
then what Japan is doing now copying the progress that we have 
made.
    If any of you--let's start with you, Mr. Ostendorff.
    Mr. Ostendorff. Senator, thank you for your question.
    Just briefly, Commissioner Magwood and I were in Tokyo on 
January 18th and met with our counterparts at what is called 
NISA, the NRC's counterpart agency in Japan for regulation of 
their nuclear industry. We had long discussions with the NISA 
leadership about their plans to reform their regulatory 
structure.
    I do think they were borrowing heavily from the United 
States' model. But I would also say that they are looking at 
enhancing independence. They are trying to increase technical 
competence in their leadership. And the Japanese, through their 
own reports, have acknowledged there are some significant 
improvements they need to make.
    So I think----
    Senator Inhofe. Improvements based on some of the things we 
have done?
    Mr. Magwood. And also an assessment of where their system 
in some areas came up short.
    Senator Inhofe. OK.
    Any of the rest of you want to comment as to some of the 
basic differences that they are facing over there, not you, Mr. 
Chairman, we have already heard from you, the others, in terms 
of what they might be getting from us? The point I am trying to 
make here is what happened over there and what happens here, we 
are talking about two totally different things, a different 
system, different geology, different weather patterns, and all 
that. Maybe you could address some of these differences. 
Because we keep hearing this, and of course the chairman has 
said we don't want to move forward until we explore Fukushima 
more.
    Mr. Apostolakis. There are, I think, a couple of things 
that stand out, if you look at what happened in Japan. The 
first one is what you just discussed with Commissioner 
Ostendorff. The regulatory authority there, NISA, was very weak 
technically. And they didn't have the amount of independence 
that we have, for example.
    The second is more technical; it has to do with the tsunami 
calculations. They were very poorly done, let's put it that 
way. They ignored data from the past. There was a report by 
some technical society in Japan a couple of years ago that 
pointed out that they had to update the tsunami calculations, 
and that was not done.
    So these two things, it seems to me, stand out. There were 
both organizational issues and technical issues.
    Senator Inhofe. And the fact that they had not ever put 
together an independent source, like you folks, right now, the 
NRC.
    Any comments on that, Mr. Magwood?
    Mr. Magwood. Senator, this is something that the Japanese 
government is wrestling with right now. They are spending a lot 
of effort to try to reform their system. They know that there 
are issues. I have discussed with Japanese officials the issue 
of independence of regulation, for example, the quality of 
technical expertise in the regulatory organization. And to be 
honest I think they are right in the middle of wrestling with 
this, and I don't think they have reached any conclusions yet.
    So I hesitate to really give much of a firm opinion about 
the state of things. But I do agree with the thrust of your 
question. Those are issues, particularly the independence of 
the regulatory agency, that I think will be essential if they 
are going to rebuild the trust that a regulator must have with 
the public.
    Senator Inhofe. Ms. Svinicki.
    Ms. Svinicki. Senator, I agree with the comments of my 
colleagues. One item that I would add is that I think that the 
Japanese acknowledge that their, what I will call command and 
control structure, in this crisis situation was severely 
challenged. And even in circumstances where decisionmaking is 
well established and well rehearsed, in times of crisis it 
becomes very difficult. I think the Japanese now understand 
that the decisionmaking lines of authorities were not as clear 
as they needed to be for a severe accident situation.
    Senator Inhofe. I appreciate it.
    Mr. Chairman, I just want to continue to get on the record 
how important it is that we develop our nuclear energy. I sit 
back and I see that it is accepted now that we in the United 
States have the largest recoverable reserves of oil, gas, and 
coal of any place in the world. Our problem is a political 
problem that won't allow us to exploit our own resources. We 
are the only country in the world that does that.
    And I see a similar thing here, too. We have this 
opportunity that is out there, and we want to exploit it. It 
was quite a number of years ago that I was the Chairman of this 
Subcommittee, when the Republicans were in majority. At that 
time we hadn't had an oversight hearing in 12 months, and we 
started changing things around, started moving forward, getting 
into the safety of all this. And I regretted when Fukushima 
came along, somehow people are assuming that there is--that 
that threat is here, when in fact the point we want to keep 
hammering is, it is not.
    So between the opportunities that we have out there with 
oil, gas, and coal, and nuclear, we can solve this problem. 
Numerically, we have all given speeches as to how long it would 
take. People are concerned about our dependence on the Middle 
East. We don't have to be dependent on the Middle East if we 
just exploit our own resources. A very important part of that 
is nuclear energy.
    Thank you, Mr. Chairman.
    Senator Carper. I was born in West Virginia, my colleagues, 
I don't know if you know that. It is a big coal State.
    Senator Inhofe. I knew that.
    Senator Carper. I take pride in the fact that the United 
States is recognized as the Saudi Arabia of coal. Given what we 
are learning about our natural gas resources, it appears we are 
the Saudi Arabia of natural gas. I understand we are in a 
position now to begin fairly soon to actually liquify it and 
begin exporting natural gas.
    Like my colleagues here I believe and have for a long time 
believed that nuclear energy has to be an important component 
of our portfolio of sources of energy in this country done 
right. And we have worked hard over the years to make sure that 
it is done right. It has not been perfect, but we always know 
if it isn't perfect we try to make it better.
    One of the reasons why--I am sorry that Senator Sanders had 
to leave, but one of the reasons why we believe it is important 
to ensure that we have a vibrant nuclear industry going forward 
is what I alluded to earlier. I am not aware of anyone, I asked 
how many people died in nuclear accidents, radiation accidents, 
in the history of this country. One of the virtues of nuclear 
power is that it doesn't emit sulfur dioxide, nitrogen oxide, 
mercury, CO<INF>2</INF>, we don't have to worry about 
contributing to climate change or global warming. It doesn't 
poison us in our lungs; we don't have folks dying because they 
are ingesting the waste that comes out of the smokestacks of 
other utilities around the country.
    And in terms of the money--I don't know if anybody has ever 
sat down, Senator Inhofe, and tried to figure out how much 
money we have saved from the 100 or so nuclear power plants 
that we don't have to pay through Medicaid or Medicare for 
folks to go to the hospital, to doctors' offices for 
treatments, for funerals, for enormous numbers of costs. It 
would be interesting to run the tab on that and see how much we 
add up to in savings.
    There is, I think, a rationale for investing some Federal 
dollars in loan guarantees for the opportunity it costs to 
avoid all those health care costs that are otherwise 
burdensome, helping to bankrupt Medicare and putting a huge 
burden on States for their Medicaid costs. I just wanted to get 
that out there.
    I will say this to the panel: it is my understanding that 
the Commission has decided to move ahead with a rulemaking to 
address what a facility should do if it experiences a loss of 
all electric power, referred to as station blackout. However, 
the NRC expects utilities will have up to December 2016 to 
comply with this new rule once it is final.
    It is my understanding that losing all electrical power for 
a long period of time was the underlying issue behind much of 
the equipment failure at Fukushima. My question would be, is 
the NRC requiring the nuclear power plants in this country to 
address these issues in any way from now until when the rule 
would become final?
    Mr. Jaczko. I think as was mentioned, we did issue an order 
which requires additional equipment to help mitigate the impact 
of a loss of all electric power. So that basically means you 
have additional portable generators, power supplies, and fuel, 
these kinds of things, and the ability to connect that power 
into the vital systems.
    So that is kind of the short-term enhancements that would 
be there to get us through to the point at which we have the 
more permanent changes made.
    I would also add that right now we do have a requirement 
that plants deal with this complete loss of electric power. 
Right now we think those requirements are not sufficient, that 
they don't require them to be able to deal with this situation 
for a long enough period of time, that Fukushima showed us is 
probably much longer, days rather than hours that they have to 
be able to cope with this situation.
    So there is not completely a void of requirements in this 
area. But we don't think right now that it is really where we 
want it to be in a few years.
    Senator Carper. Do any other Commissioners want to add to 
that?
    OK.
    My next question is, during the December 15th hearing, 
about 3 or 4 months ago, I asked Chairman Jaczko if the day to 
day NRC staff work was being compromised with the staff working 
on the Fukushima recommendations. I specifically asked about 
the licensing process for new reactor and the relicensing 
process for our current reactors.
    Chairman Jaczko responded that there may be some delays in 
the relicensing process for our current reactors due to the 
constraint of resources. I followed up with a question for the 
record for all of you. It asked how many staff were working for 
relicensing leading up to the Fukushima crisis and how many are 
working on relicensing today. You all answered me the same 
answer, I believe, that 82 employees were working on 
relicensing before Fukushima, and 77 are working on it now.
    And that doesn't seem to be a large shift of resources, a 
modest shift of resources. But I also asked how many additional 
staff are needed to ensure that there are not any delays. And I 
did not get a clear answer from any of you.
    So let me just ask again, if I can. Is the day to day NRC 
staff work being compromised with the staff working on 
Fukushima recommendations? Do you expect delays in licensing 
and/or relicensing because of that? And if there are any 
extreme gaps that will reduce performance, what do you need, if 
anything, to fill those gaps?
    And that would be for the whole panel. We will start with 
Commissioner Ostendorff, and we will just go to your right.
    Mr. Ostendorff. Senator, I am not aware of any significant 
impacts that Fukushima is having on licensing. There are some 
small impacts. I think Bill Borchardt, who is here in the room 
today and is our executive director for operations, is doing a 
very good job of managing priorities for staff work. So I am 
not aware of there being any significant impacts.
    Senator Carper. All right.
    Commissioner Apostolakis.
    Mr. Apostolakis. I agree with Commissioner Ostendorff.
    Senator Carper. Mr. Chairman.
    Mr. Jaczko. Well, there certainly are impacts. We have put 
a large number of people working on the Fukushima efforts. So 
low priority activities will not be done in the area of 
licensing. Probably the most significant impact is in the area 
of extended reviews of so-called power uprates. Those will 
likely take longer than we originally had anticipated. But 
again, nothing that would have certainly an impact on safety 
and our safety efforts and our safety oversight will continue 
in that area.
    So if there is a shortcoming it is not so much in the area 
of financial resources, it is simply expertise and staff 
expertise that we just don't have, and additional finance 
resources won't necessarily improve.
    Senator Carper. Good. Thank you.
    Commissioner Svinicki, please.
    Ms. Svinicki. Senator, I have no different information than 
the written response I provided to the Committee on March 5th. 
But I would just emphasize my agreement with Chairman Jaczko: 
it is both resources and what we call critical skill sets, 
meaning that some of these issues require niche expertise, and 
we have a limited number of some experts.
    Senator Carper. All right, thank you.
    Commissioner Magwood, please.
    Mr. Magwood. I think my colleagues have covered it. I don't 
think I have much to add except to say that I have asked this 
question multiple times within the agency to make sure I 
understand how our Fukushima efforts have impacted things like 
license renewal activities. It seems that, as one of my 
colleagues mentioned a minute ago, that the staff has been able 
to manage through this very effectively and has been able to 
where, if a particular person is necessary to be moved to work 
on Fukushima, there was another person ready to backfill that 
was prepared to take on that work.
    So we have been able to manage this effort without a major 
interruption of our important work.
    Senator Carper. Good. Thank you all for those responses.
    We have been joined by a Senator, not just any Senator, but 
a Senator from New Mexico, Senator Udall.
    Welcome, you are recognized.
    Senator Udall. Senator Carper, thank you very much, and 
thank you to the Commission for being here.
    I first wanted to ask about--several of the priority 
recommendations from the NRC may not be implemented until 2016, 
4 years from now and 5 years after the Fukushima disaster. The 
average American, it seems to me, expects the Government to 
keep them safe from disasters at nuclear power plants. Why does 
it take 5 years to implement the short-term safety 
recommendations following the worst nuclear disaster in a 
generation?
    Mr. Jaczko. I think the one area right now where we know 
there will be some challenges is in the area of seismic, 
analyzing the seismic or earthquake risks at nuclear power 
plants. I think the simple answer to that is that the industry 
does not have the experts to do this. And I think that is 
indicative of the fact that this is not an issue that we 
probably paid enough attention to in terms of updating our 
requirements, updating our standards, updating our skill set 
and our knowledge base.
    That has clearly, I think, been exposed as a weakness. And 
that is why it is going to take us time, because there are 
limited people who can do these kinds of analyses, so they are 
going to have to be shared among the very licensees that need 
to do this work.
    So I think in that area in particular, it is part of the 
reason.
    Senator Udall. Are there any other reasons why? In that 
area I can understand that. Are there other reasons?
    Mr. Jaczko. Well, there is a certain point at which this is 
technically complex. And it does take some time to do these 
analyses. It takes time to then-- once, for instance, we 
understand what the problems are at a plant, then proposals 
need to be made about how to fix those. Those changes then 
ultimately need to actually be made in the plants themselves.
    So that work does take some amount of time, and we can't 
unfortunately do these things overnight. But I think it is 
reasonable to shoot for a target to get it all done within 5 
years. And that means getting all the parts of the plants 
changed as well. I am not confident right now that we are on 
target to do that for everything we need to do.
    Senator Udall. Do any of the other Commissioners have 
comments on that question or on what the chairman said?
    Please, go ahead.
    Mr. Ostendorff. Senator, I appreciate the question very 
much. I would just like to comment that a foundational element 
to the Commission's actions here had been the Near-Term Task 
Force's findings that there is no imminent risk from continued 
operation of our existing nuclear power plants. If there had 
been a finding of imminent risk, we would have shut them down. 
We did not find there is imminent risk.
    So a more measured approach is appropriate, given that 
foundational entering assumption and finding.
    Senator Udall. Please.
    Mr. Apostolakis. I would like to add that, I mean, maybe 
the impression is that we are doing something about seismic 
now. I mean, this has been an issue that has been of concern 
for decades. And the plants have been found safe by our staff.
    There is some new information from the U.S. Geological 
Survey that now is being evaluated. So it is not like we are 
looking at the issue for the first time. They are safe as far 
as I am concerned.
    Senator Udall. Commissioner Magwood.
    Mr. Magwood. Senator, I appreciate your question on this. I 
think one of the things that is very important to emphasize--
and I think Commissioner Apostolakis mentioned this in an 
earlier response--as the agency goes through this process we 
will be prioritizing based on the hazard and risk presented at 
each individual plant site. So I think you will find that as we 
move forward, you will see us having greater activity on sites 
that, after we go through the initial hazard assessment, we 
will deal with the plants that need to be dealt with first.
    So I think that where the risk is highest we will take 
action sooner. I think that is an appropriate way to proceed.
    Senator Udall. Thank you.
    I understand there are dozens of nuclear power plants 
across the country whose operating licenses are about to 
expire. These plants are seeking to extend their licenses for 
another 20 years beyond the original predicted life span of the 
plants. Do all U.S. nuclear plants have to meet all the newer 
safety standards, or do older plants get exemptions from new 
standards?
    Mr. Chairman.
    Mr. Jaczko. Well, in general, as we get new requirements we 
will in some cases require plants to update to those new 
requirements, and in some cases we won't. It depends on the 
particular issue and the particular way in which the plant was 
licensed. If you go back to the very first plants that were 
licensed in this country, they were not licensed at a time when 
we had kind of a generic set of basic safety requirements or 
basic design requirements. So some of those plants are licensed 
to a very different type of standard than other plants.
    So there is variety in the way the plants are licensed and 
the requirements that have been applied to different plants. 
When it comes to the relicensing itself, we don't do a kind of 
a de novo review. It is like when you get a driver's license, 
every 5 years you have to get--or 10 years, whatever the 
frequency is--to get your driver's license extended often you 
send something in the mail, and you get a new license.
    Well, our license renewal is not a brand new licensing 
action, much like going in and taking a driver's test again and 
doing all the things in the written test that you would do 
initially getting a driver's license. We don't require that for 
license extension. We require that they have programs in place 
that we review to ensure that the plant will deal with the 
aging of the components that are important to safety. That is 
the decision we have made and really the basis for our 
decisions about license extension.
    Senator Udall. Do any of the other Commissioners, do you 
have thoughts or comments on that question?
    Mr. Apostolakis. I think the chairman is right, that we 
look at the subset of the requirements for the license 
extension. But once the license is extended then they are 
subject to all of our orders that apply to everything else. 
They are just treated like any other operating plant.
    Senator Udall. The point here though is if they have been 
given exemptions in the past and then post-Fukushima, are you 
going to re-look at those and see, are those safe in light of 
what is going on and what you have learned from the process and 
the accident.
    Mr. Apostolakis. I am not aware of any exemptions. And the 
orders we issued this week apply to everybody.
    Senator Udall. Can I do one more question?
    Senator Carper. I don't know, what do you think?
    Senator Udall. Oh, Senator Barrasso is here, I didn't see 
him.
    Senator Carper. Go right ahead.
    Senator Udall. I will wait.
    Senator Carper. We are just here to listen to you.
    [Laughter.]
    Senator Udall. Mr. Chairman, nuclear power makes up about 
80 percent of the French electricity supply. The French nuclear 
industry is quite different than ours, with a much more 
involved, as you know, government role. I was interested to 
learn that regulators there are going to require safety 
equipment designed to survive disasters even worse than what 
the plants are designed for. In the U.S. apparently the nuclear 
industry is taking the lead in updating emergency equipment 
prior to the NRC action.
    When is the NRC going to implement a similar requirements 
in the U.S., and what are the key differences between the two 
national approaches?
    Mr. Jaczko. I am reluctant to too much characterize what 
the French are doing because we focus more on what we are 
doing, and that has occupied a bit of our time. But the basic 
ideas, I guess I would say, for what we are doing here is 
really to get at preventing these kind of very severe 
accidents, which means making sure that all the plants can 
handle the external hazards, earthquakes, flooding, other 
challenges like that, then really on mitigation. So if you get 
into a situation in which Mother Nature does something we 
didn't plan for, then you can minimize the likelihood of a very 
severe accident, which means new equipment, new procedures and 
other enhancements to the system to deal with that.
    The last piece is to make sure we have a robust emergency 
preparedness system to respond in the event that all those 
other things we planned for fail. So that is really the 
approach that we have taken, is to try and bolster each of 
those three areas with some new requirements in some regard.
    My limited understanding of what the French are attempting 
to do is to, if you will, to kind of harden everything, make 
everything a little bit more robust, with greater physical 
infrastructure to protect equipment from external hazards, to 
ensure that you have an additional way to control the reactor. 
That is in a hardened facility. So some of the things that they 
are doing are things that we have already required even before 
Fukushima for some of our plants. Sometimes it is a little bit 
hard to compare the changes they are making to the changes that 
we are.
    But I think in general in the international community there 
is a lot of consensus about what really needs to be done. I 
think in general we are moving forward relatively consistently. 
But there are differences just because of the uniqueness of 
each country and its regulatory program.
    Senator Udall. Thank you on that. The thrust of my question 
was just to get to the issue of safety, and are other countries 
pushing more into safety. And in hindsight, if we do have, 
which none of us want, future disasters, is it going to be 
found that they took actions that they had the safest plants? 
All of you have said over and over again, we have very safe 
nuclear plants. So I hope that you are looking at everything 
that we do, from exemptions to additional policies that are 
going to be put in place, new licensing to make sure that we 
have the safest nuclear plants in the world.
    Thank you for that, and I very much appreciate, Senator 
Carper, your courtesies, and Senator Barrasso. I am going to 
slip out for a meeting here but I may come back and ask an 
additional question.
    Senator Carper. Good. Let me just say, you asked excellent 
questions. One of the things that we are trying to do here is 
to learn from the disaster. Einstein used to say in adversity 
lies opportunity, terrible adversity in Japan, opportunity for 
us to learn, to make sure that we can avoid some problems and 
mistakes that they made.
    And you referred to France as well; I had the opportunity 
to go over and take a look at what they are trying to do in 
terms of reprocessing spent fuel rods and that kind of thing. 
Somebody somewhere around the world is going to figure this 
out. Somebody is going to figure out how to do it, and they are 
going to figure out how to derive additional energy from the 
spent fuel rods and reduce the amount of time that they have to 
be stored. And folks up at MIT, where Dr. Apostolakis comes 
from, they have been working on this and a lot of other places 
as well. The French have been working on it for a number of 
years. We will figure this out eventually.
    And when somebody does, I hope we are the first. But I 
think we will probably, in the end, we are going to need some 
repositories around the country to store the stuff for an 
indefinite period of time. We don't need them immediately. But 
the idea of learning from others in the world, they can learn 
from us, and we will learn from them as well.
    Senator Udall. Senator Carper, I did--like you, I went to 
France, and I spent 2 weeks, and I toured their nuclear plants. 
The big question I had, because as you probably know, New 
Mexico has the first, for transuranic waste, it is called the 
Waste Isolation Pilot Project. So I was trying to find out from 
the French, because they are putting all their eggs in the 
nuclear basket, where are they moving in terms of permanent 
storage of waste.
    The question, after I kept asking the question in place 
after place, to group after group, they said, we were waiting 
for America to find a permanent solution.
    Senator Carper. Well, that is good. When were you there?
    Senator Udall. I was there in the period when I was State 
attorney general and had the opportunity to travel over on a 
program that was an exchange. I think I was there in about 
1995, 1996.
    Senator Carper. Good.
    Senator Udall. Thank you.
    Senator Carper. Thank you, sir.
    Senator Barrasso, anything else?
    Senator Barrasso. No, thank you.
    Senator Carper. I am going to telegraph a pitch here, 
Commissioners. One of the ways I like to close down a hearing 
like this is just to invite the witnesses sometimes to just 
offer a closing statement, something that has come to your 
mind, something that because of the interaction of the 
questions or the answers that you think you would like to add, 
sort of like a benediction.
    So you can be thinking about that; I am going to ask one 
last question of Chairman Jaczko, then we will do that.
    Chairman Jaczko, though we know a lot about what happened 
in Japan, and if adopted, lessons learned from the accident 
here in the U.S., we are still learning and will continue to do 
so for some time, maybe a long time. Based on the continual 
information coming from Japan, how has the Commission ensured 
that the NRC will continue to evaluate and analyze that 
information so that it is incorporated into the current 
process?
    Mr. Jaczko. We have established an organization, it is our 
Japan Lessons Learned Directorate, that is going to be working 
on all the identified issues. Part of their task is also, as 
new information comes in, to evaluate that information and 
determine if it needs to get added formally to the tasks that 
we have in front of us. So they will be reporting back to the 
Commission on a periodic basis, every 6 months, I believe, to 
update us if they have new information.
    So I think we are well prepared to deal with new 
information as it comes along.
    Senator Carper. OK.
    Why don't you all go ahead and give me a closing thought?
    Chairman Jaczko, why don't you go first. Just a closing 
thought you would have for us, use maybe a minute or so if you 
will.
    Mr. Jaczko. I would just say, today I think is Thursday, 
which is the first day of the March Madness basketball 
tournament. I think we are, in our lessons learned 
enhancements, we are in the first round of the tournament. We 
have a long way to go to get to the Final Four. I think the 
progress we have made has been substantial. But I think we need 
to keep the focus, and we need to keep the effort on making 
progress.
    As time goes on, perhaps unlike the Final Four, interest 
wanes rather than increases. I think it is very important that 
we not lose sight of the need to complete these actions and 
move on, because there will be other challenges that we need to 
deal with.
    Senator Carper. Good. Thanks for that.
    Commissioner Ostendorff.
    Mr. Ostendorff. Thank you, Senator. I agree with Chairman 
Jaczko's comment. I strongly agree that we need to keep focused 
on these issues and that there is a long road ahead. But I will 
also say that I am very comfortable with where we are as an 
agency. I think the processes that we have followed to date 
have stood us in good stead. The integrated prioritized 
approach of the staff, the steering committee, et cetera have 
really put us in a good position.
    I think along with other colleagues here, we have had a 
chance just in the last 2 days, with our annual Regulatory 
Information Conference, to meet with a number of international 
counterparts. I have met with 12 here in the last couple of 
days and with situational awareness of what is happening 
elsewhere in the world, I am very comfortable with where we 
are.
    Senator Carper. Thank you.
    Commissioner Apostolakis.
    Mr. Apostolakis. Thank you, Senator.
    I do agree with my colleagues regarding Fukushima. But I 
would like to say something else. Senator Barrasso earlier 
quoted from the recent Union of Concerned Scientists report. I 
said I disagreed with the statement that was contained in that 
report, and Chairman Boxer implied that we were bashing the 
author, David Lochbaum.
    I would like to correct that impression. I have great 
respect for David. I always look forward to reports that he 
authors; usually there is something good there. But I don't 
agree with him all the time, and in this particular case, I do 
disagree. I do disagree.
    But I have great respect for him. In fact, yesterday I 
invited him and met with him for 15 minutes to see what he 
thinks about the current state of affairs. That is the respect 
I have for him.
    Thank you.
    Senator Carper. I am glad you made that clarification. 
Thank you for saying that.
    Commissioner Svinicki.
    Ms. Svinicki. My comment was going to be the same as 
Commissioner Ostendorff's, which is that I have tremendous 
confidence in the disciplined process that the NRC and the 
Commission and the staff have followed to get us to the point 
where we have, I think, prioritized appropriately. We are 
moving forward on high priority items.
    I think that we have done a very searching review of 
lessons learned, and I do think that we are focused on the 
right things. Not everything can be pursued at the same pace. I 
think we have put the emphasis appropriately on the highest 
priority items. And I think we have followed a tremendously 
rigorous process in getting to where we are today.
    Thank you.
    Senator Carper. Thank you.
    Commissioner Magwood.
    Mr. Magwood. Thank you for the opportunity.
    One thing, a couple of thoughts. First, I think it is 
always easy, since we are the center of this, as the regulatory 
agency of the United States, to think that what we do is very 
important, and it is. But there are so many other people who 
have taken a role in thinking about these issues, including the 
Union of Concerned Scientists with their report American 
Nuclear Society, American Society for Mechanical Engineers who 
presented some thoughts yesterday which were quite intriguing.
    So there are a lot of people in this country thinking about 
this, including the nuclear industry. I think it is really 
important that the American people understand that the nuclear 
industry really has been very forward leaning in this. They 
have not resisted what we have been doing. In fact, they have 
offered very good ideas on their own. I think they should be 
recognized for the good work they have done.
    But I also wanted to close just to let you know that while 
Commission Ostendorff and I visited the Fukushima site, the 
most lasting impression for me wasn't really what I saw at the 
site. It is what I saw on the way to the site. On the van ride 
through the 12-mile evacuation zone, as you went through 
neighborhood after neighborhood, going past business after 
business and realizing there are no people there, it leaves a 
strong impression on you.
    And for me, the image that stays in my mind is that when I 
looked at the houses going by as we rode past, I noticed that 
the last thing people seemed to do when they left their homes--
maybe for the last time--was draw the drapes to a close. I am 
not sure what reflex there is in the human psyche that brings 
that out. But that is what I saw time after time. For me, it is 
very clear that we have to do everything in our power to make 
sure nothing like that ever happens in this country. So I have 
completely devoted myself to making sure that doesn't happen.
    Senator Carper. That was a very poignant comment there. 
Hopefully, if we are vigilant, we are not going to have to 
close those drapes as they did over there. But at the same 
time, maybe we can help them open their drapes again. That is 
what we are trying to do.
    I read in the newspaper the other day that we have been 
conducting, I think the Federal Reserve has been conducting of 
late yet another stress test for some of our major banks. You 
may have seen that. I think they looked at 19 banks and said 15 
of them passed with flying colors and 4 others have some work 
to do in that. That work continues.
    I think the NRC has gone through a stress test of its own 
in recent months. And in terms of how to grapple with 
Fukushima, how to be supportive and helpful to the folks over 
there, at the same time to make sure we learn whatever lessons 
are to be garnered from their tragedy and to ensure that we 
infuse those lessons and deploy them in an appropriate way here 
with our nuclear power plants. I am encouraged by what you 
shared with us today, that we are doing pretty well with 
respect to that stress test.
    We have a couple new nuclear power plants that have been 
licensed for the first time in some 30 years. And their 
construction has begun, I think with appropriate Federal 
support, direct or indirect.
    I think it is too bad my colleagues had to leave, but as I 
am one who supports not tens of billions to support the nuclear 
industry, but some support as appropriate, particularly through 
loan guarantees and to making sure that the NRC has the 
resources that it needs to do your jobs, but at the same time, 
as I support Federal funds for nuclear, I also think it is 
appropriate for us to support Federal investments for renewable 
energies, whether it is offshore wind or biofuels and clean 
coal, really clean coal.
    But the other thing, and I didn't mention it, I don't know 
if it has been mentioned here today, but the design approval 
for the new AP1000, I think that is something you can feel good 
about. I am pleased you have been able to reach that agreement.
    So I think with respect to working through agenda, we are 
at a better place today than we may have been in the past.
    My last thought goes back to the visit that Commissioner 
Magwood and Commissioner Ostendorff paid in Japan. I mentioned 
I had been on the border of Pakistan, right up against 
Afghanistan a year or two ago when they had so many Pakistanis 
evacuated because of the terrible flooding they had there. I 
had a chance to visit a refugee camp where there were probably 
about 150,000 refugees still encamped. Through the United 
Nations, Red Cross, we had provided the resources, most of the 
people there had no idea that we had done that.
    I had the opportunity to address a shura of the elders from 
the tribes that were there. This was kind of like a surprise, 
and before we left, the folks running the camp said, would you 
like to address the shura? I said, well, sure. And I talked to 
them through a translator about the golden rule. Then I told 
them, I said, when your children have no food, our children 
have no food. When your children have no medical care, our 
children have no medical care. When you have no place to live, 
then our families have no place to live.
    I told them about the golden rule. And I think they got it. 
Because the golden rule is part of their faith as well.
    One of the things, when we were last here, I implored all 
of you, Commissioner, Chairman and the other Commissioners to 
keep in mind the golden rule and to treat each other, whether 
it is just the Commissioners, the other folks who work with you 
and for you at the NRC to always keep that in mind. I would 
just say that again today.
    And this is actually something I share with my colleagues a 
whole lot as well, that is a lesson we need to learn and re-
learn and re-learn every day. So I would urge you to continue 
to do that. I am very pleased with today's hearing and pleased 
with the work that is being done, and thank you all for joining 
us today.
    I would note for the record that some of our colleagues 
weren't able to join us and still have 2 weeks to submit 
questions and materials for the record. I would ask that our 
witnesses respond promptly to those questions so they can 
become part of the hearing record.
    Again, we appreciate each of you, the work that you are 
doing, your attendance today, and look forward to continuing to 
work with you to make sure that everything we do, including 
nuclear power, we do better.
    Thanks so much. With that, this hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer, for holding this hearing and 
focusing on implementing the lessons learned from Fukushima. 
The efforts will ensure that the safety of nuclear plants in 
the U.S.--and around the world--will be enhanced and the use of 
nuclear energy sustained over the long term.
    Ensuring the safe use of nuclear energy is a very serious 
job. That is why Congress established an independent 
commission, the NRC, and charged five commissioners with the 
responsibility to protect public health and safety. The public 
is best served by a commission that functions collectively and 
collegially to pool their expertise. That is why I'm anxious to 
see progress on the renomination of Commissioner Svinicki, 
which I hope President Obama sends us soon. She is due for 
renomination in June, and given the scope of issues before the 
Commission it is important that the agency continues to benefit 
from her valuable expertise.
    As Chairman Jaczko frequently reminds us, we can't be 
complacent in regard to nuclear safety. At the same time we 
can't allow ourselves to be paralyzed by fear. Harnessing any 
energy source carries some measure of risk that must be safely 
managed.
    For the first time in 34 years the NRC has issued a license 
to build two new reactors creating 3500 construction jobs and 
800 permanent jobs. This is a true milestone in the Agency's 
history and reflects well on the Commissioners present and past 
that worked so hard to prepare for new applications. 
Congratulations to those of you who have worked on this 
license. The Chairman split with his fellow Commissioners and 
opposed the license saying: ``I can't support issuing this 
license as if Fukushima had never happened. But without this 
license condition, in my view, that is what we are doing.'' In 
fact, 1 month later, the Commission voted for the new Vogtle 
units to receive the same Orders issued to existing plants. 
There was no need for Chairman Jaczko to take his ``my way or 
the highway'' approach here, lashing out at his colleagues and 
implying that they were ignoring the lessons of Fukushima. 
These Orders, reflecting the lessons of Fukushima, are as 
applicable at Vogtle as they are at any U.S. facility.
    License renewal is an issue I have worked on for over a 
decade. When I chaired the Clean Air and Nuclear Safety 
Subcommittee beginning in 1996, we made sure the NRC was 
prepared to review license renewal applications efficiently in 
24 months (or 30 months if it was contentious). In 
Massachusetts the Pilgrim plant filed its application over 6 
years ago. For almost 5 years, 3 of those years under Chairman 
Jaczko's leadership, Pilgrim has been subjected to an 
unprecedented cycle of contentions and petitions from 
interveners. Chairman Jaczko again dissented from his 
colleagues in a recent Commission decision on yet another 
petition. He wanted to lower a long established threshold for 
contentions to allow even more delay to the renewal process.
    Chairman Jaczko gave a speech last month and stated that 
one scenario for nuclear energy's future includes new plant 
construction and license extensions. He said the other 
scenario, which is ``just as plausible'' is that the industry 
is ``unsustainable'' and ``dominated by a process of continuing 
decommissioning.'' He said, ``I think today there are a number 
of decisions about nuclear safety and actions related to 
nuclear safety that may move you on one of those paths versus 
the other path.''
    It's clear which path Chairman Jaczko prefers, and it's no 
secret that I strongly disagree with him on that. As NRC 
Chairman he takes every opportunity to portray himself as the 
sole Commissioner most dedicated to public safety while 
condemning his colleagues and doing his utmost to hinder and 
delay licensing actions.
    To the other four Commissioners, let me say that your 
debates and disagreements are healthy and respectful. Your 
actions may prevent the imposition of an unpredictable 
regulatory burden that makes nuclear energy economically 
unfeasible, much the way EPA regulations are driving the 
premature shutdown of coal-fired power plants. It's up to you 
four to uphold the NRC's reputation for reasoned and balanced 
regulation.

                                 [all]
</pre></body></html>
